<html>
<title> - SYRIA STUDY GROUP: RECOMMENDATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
           SYRIA STUDY GROUP: RECOMMENDATIONS FOR U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2019

                               __________

                           Serial No. 116-75

                               __________

        Printed for the use of the Committee on Foreign Affairs    
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-156 PDF            WASHINGTON : 2019

                      
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas

                      Casey Kustin, Staff Director
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                          INFORMATION REFERRED

Syria Study Group Final Report and Recommendations submitted for 
  the record from Chairman Deutch................................     2

                               WITNESSES

Stroul Ms. Dana, Co-Chair, Syria Study Group (joint statement)...    89
Singh, Mr. Michael, Co-Chair, Syria Study Group (joint statement)    89

                                APPENDIX

Hearing Notice...................................................   116
Hearing Minutes..................................................   117
Hearing Attendance...............................................   118


           SYRIA STUDY GROUP: RECOMMENDATIONS FOR U.S. POLICY

                      Wednesday, October 16, 2019

                        House of Representatives

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:51 p.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. This hearing will come to order. We welcome 
everyone.
    The subcommittee is meeting today to hear testimony on the 
findings and recommendations in the Syria Study Group's final 
report.
    Given the timing of this hearing, we will have the 
opportunity to discuss the ramifications of recent U.S. policy 
changes in Syria and how the study group recommendations can 
still address our challenges there.
    I thank our witnesses for appearing today and without 
objection I move to enter the full Syria Study Group report 
into the record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Deutch. I now recognize myself for the purpose of 
making an opening statement.
    [Pause.]
    Mr. Deutch. Ms. Stroul and Mr. Singh, thanks very much for 
testifying today and for your work on the final report of the 
Syria Study Group.
    Your report is a thoughtful, informed overview of the 
Syrian conflict and provides pragmatic recommendations for how 
American policymakers can protect U.S. interests and stabilize 
Syria.
    Now, it is well known that President Trump does not like to 
read, but I wish that he had skimmed the executive summary of 
your report before his recent phone call with Turkish President 
Erdogan.
    Your assessment notes the liberation of ISIS-held territory 
does not eliminate the group's threat to the United States. It 
also notes the ISIS detainee population is a long-term 
challenge that is not being adequately addressed, that Iran 
continues to entrench itself in Syria, Russia and Iran show few 
serious signs of divergence, that the United States 
underestimated Russia's ability to use Syria as an arena for 
regional influence, and that Turkish insurgence into 
northeastern Syria would represent a major setback to U.S. aims 
in Syria and a new crisis for the U.S.-Turkish relationship.
    And despite these challenges, the United States maintains 
leverage to shape an outcome in Syria that protects core U.S. 
national security interests.
    In the 10 days since President Trump's decision to hastily 
withdraw U.S. forces in northeastern Syria and consent to 
Turkey's invasion of the region, your assessment has in fact, 
sadly, borne out.
    Rarely has a foreign policy decision by a United States 
president yielded this many disastrous consequences this 
quickly.
    Most importantly, President Trump's irresponsible choice 
makes the American people less safe. The chaos in Syria has 
allowed hundreds and likely thousands of ISIS fighters and 
supporters to break out of prison.
    Yesterday, senior U.S. officials told Foreign Policy that 
Turkish-backed forces are deliberately releasing ISIS detainees 
previously held by Kurdish fighters, and as your report notes, 
ISIS has already transitioned to an insurgency and in the 
absence of effective pressure against it, will utilize its 
Syrian sanctuary for organizing, instructing, and inspiring 
external attacks.
    Tragically, like other aspects of your assessment, I expect 
this prediction to ring true in the coming weeks and months. 
The President also forced Kurdish forces to reach an agreement 
with Bashar al-Assad, allowing his soldiers and Russian troops 
to expand their presence in northeastern Syria.
    Yesterday, Russian media circulated videos showing Russian 
soldiers and their proxies taking over recently abandoned U.S. 
bases in the region.
    This outcome will also benefit Iran by reinforcing the 
position of its ally, Assad. It is unclear how allowing Tehran 
to fortify a land bridge to the Mediterranean, enabling it to 
threaten our ally, Israel, is consistent with the President's 
maximum pressure policy on Iran.
    It is also unclear how ceding the field to Putin in Syria 
supports the Administration's great power competition strategy.
    The President's rash decision also put American soldiers in 
danger. On Friday, Turkish troops fired artillery at an 
American base. A day later, Turkish-backed forces cut the main 
highway in northeastern Syria, effectively isolating U.S. 
soldiers in the region.
    And while I am thankful no Americans were hurt in either 
case, both incidents placed American troops directly in harm's 
way and were a direct result of President Trump's shortsighted 
choice.
    The President justified his decision by claiming that he is 
reducing our presence in the Middle East and terminating 
America's endless wars.
    But the Administration just sent an additional 1,800 troops 
to Saudi Arabia. Secretary of Defense Esper noted on Friday 
that an additional 14,000 American personnel have been deployed 
in the Middle East since May.
    These deployments include airborne early warning aircraft 
squadrons, maritime patrol squadrons, Patriot air and missile 
defense batteries, B-52 bombers and an aircraft carrier strike 
group.
    I support the objective of this increased troop presence--
to deter Iran. But the President's claim that he is reducing 
the U.S. role in the Middle East is simply a lie and the 
American people see right through it.
    The situation in Syria is tragic because it could have been 
avoided with real strategic diplomacy. The American presence in 
Syria was not an endless war but a limited sustainable 
efficient deployment, one of the notable successes of recent 
U.S. policy in the Middle East.
    But President Trump threw it all away, yielding U.S. 
leverage, putting American troops and civilians in danger, 
undermining our credibility, dividing NATO, removing pressure 
on ISIS, giving a strategic victory to our adversaries, and 
betraying our Kurdish partners who fought valiantly in recent 
years to counter ISIS with American support.
    This is not just my opinion but one that most Republicans 
share. Senator Graham labeled President Trump's decision the 
biggest blunder of his presidency and noted, ``We are 
witnessing ethnic cleansing in Syria by Turkey, the destruction 
of a reliable ally in the Kurds, and the reemergence of ISIS.''
    Representative Cheney said the President's choice was 
impossible to understand. Senator Rubio claimed, ``The damage 
to our reputation and national interests will be extraordinary 
and long lasting,'' and President Trump's former Ambassador to 
the United Nations, Nikki Haley, argued, ``The Kurds were 
instrumental in our successful fight against ISIS in Syria. 
Leaving them to die is a big mistake.''
    I could go on. That one decision could unite both Democrats 
and Republicans on Syria policy and yield this many calamitous 
results says a lot about President Trump's capabilities as 
commander in chief.
    The current unrest in Syria, sadly, epitomizes the 
strategically confused and morally bankrupt approach to the 
world, and I finally would just urge my Republican colleagues 
to remember that Syria is not the only example of the president 
abandoning a partner in the face of an aggressor.
    President Trump withheld $391 million in congressionally 
appropriated security assistance to Ukraine, a State that is at 
war with Russia in a conflict that has killed more than 13,000 
people, as part of an effort to compel the Ukrainian government 
to dig up dirt on his political opponent.
    That behavior should unite us all--Republican, Democrat, 
independent--in rejecting a foreign policy that has put 
personal ambition over national interest and sullied our 
Nation's honor and credibility.
    I look forward to our witnesses' testimony and suggestions 
on how the U.S. can salvage our policy and achieve our national 
interests in Syria, end the conflict that has led to the deaths 
of over 600,000 people, and help the Syrian people build a 
better future, one that is not dictated by Bashar al-Assad, by 
Russia, and by Iran.
    And with that, I yield to Mr. Wilson for his opening 
statement.
    Mr. Wilson. Thank you, Chairman Ted Deutch, for calling 
this important and timely hearing.
    Tragically, the United States' Syria policy has been a 
failure from the very start. It has been an example of 
America's strategic failure at every point, from the notorious 
red line by President Barack Obama that was never enforced to 
the reckless betrayal of the Kurds in the recent days.
    But I believe that our failure in Syria is far greater than 
a strategic misstep. Our Syria policy over the last 8 years 
represents a deep moral challenge to all of us.
    How could we stand by while a brutal authoritarian regime 
massacres its people indiscriminately? How can we talk of red 
lines?
    We sit here over 8 years after Bashar Assad began 
butchering the Syrian people using poison gas and barrel bombs, 
still trying to figure out what our policy should be.
    But it is not just us. It is the entire international 
community that is complicit in the privations of the Assad 
regime and its backers in Iran and Russia.
    The international system as we know it was founded in the 
aftermath of the humanitarian horror and catastrophe of the 
Holocaust.
    But it has failed as well to prevent the very tragedy that 
it was supposed to act as a bulwark against. The enemies of 
freedom and democracy have hijacked our multilateral 
institutions. Instead of promoting liberty, they are exploited 
to cement tyranny and oppression.
    Developments over the past week have only underscored the 
importance of the work that our esteemed witnesses here today 
have spent so much time.
    I was deeply disappointed by the Administration's decision 
to withdraw U.S. troops from northeastern Syria and effectively 
green light a Turkish incursion, putting our Kurdish allies at 
great peril.
    The Syria Study Group, presciently, warned against such a 
withdrawal and outlined the potential negative consequences 
that we are, unfortunately, witnessing today.
    Like Chairman Deutch, I am increasingly concerned about the 
resurgence of ISIS on the heels of the U.S. withdrawal. Our 
withdrawal from Syria creates dangerous breathing room for ISIS 
elements in the region, which can ultimately endanger American 
families back home from terrorist safe havens overseas.
    In order to prevent them from coming here, we must fight 
them over there. Our force of about a thousand American 
soldiers in Syria was a minuscule percentage of all American 
military forces in uniform today.
    But the role of this small contingent was outsized. They 
helped protect the world from the dangers of ISIS establishing 
safe havens to threaten American families. This was extremely 
cost effective military investment.
    It seems to me the only real winners of our withdrawal are 
Russia, Iran, Turkey, and the Assad regime, in addition to the 
ISIS terrorists.
    But the bigger problem is that our withdrawal from Syria 
could have consequences in virtually every other arena of U.S. 
foreign policy.
    In a single stroke, we have, sadly, undermined U.S. 
credibility everywhere. The move solidifies a concern and fear 
that America is receding from the world's stage, inspiring and 
enabling the forces of tyranny everywhere, which has not been 
the President's policy of peace through strength.
    Furthermore, the Assad regime, backed by Russia and Iran, 
continues its barbaric assault on Idlib, Syria as we speak. 
Reports over the past few days indicate that Russia has 
intentionally bombed over a dozen hospitals in the province.
    Russia, clearly is not a partner in Syria but an adversary. 
How many Syrians must be killed until we take action to stop 
this killing machine?
    There is simply no solution for Syria with Assad in power. 
As the chairman has indicated, I would like to conclude by 
saying that we know America has been the moral actor on the 
world stage. We have always aimed to do the right thing and the 
people of the world know that. They know the values America has 
stood for.
    We believe that we still can return to that ideal. In my 
opinion, there is simply no substitute for American leadership 
to preserve peace through strength.
    I yield back the balance of my time.
    Mr. Deutch. Thank you, Mr. Wilson.
    I now will recognize members of the subcommittee for a 1-
minute opening statement should they choose to make one.
    Mr. Lieu, you are recognized.
    Mr. Lieu. Thank you, Mr. Chair, and thank you, Ranking 
Member Wilson, for your opening statement.
    I do not object to withdrawing U.S. troops in Syria. I 
object in how that was done. Because of Donald Trump's 
impulsive decision with no planning and no coordination, we now 
have ISIS terrorists that have been set free in Syria. We have 
Turkish forces slaughtering our allies, the Kurds, and then we 
have Russian military forces gleefully taking over U.S. 
military facilities.
    If you look at Donald Trump's foreign policy, many of his 
actions have principally benefited Russia, from attacking NATO 
to blocking military aide to Ukraine to now his decision in 
Syria.
    So I think it is appropriate for the American people to ask 
the question of when it comes to Vladimir Putin, why does it 
always seem like Donald Trump bends the knee?
    I yield back.
    Mr. Deutch. Thank you, Mr. Lieu.
    Mr. Chabot, you are recognized for 1 minute.
    Mr. Chabot. Thank you, Mr. Chairman.
    As a former chairman of this subcommittee, let me just say 
that the situation in Syria has been truly a tragedy to watch 
unfold.
    Over the past now 8 years, we have witnessed just how 
brutal Bashar al-Assad truly is and the barbaric lengths He is 
willing to go to hold on to power.
    Hundreds of thousands of civilians have been killed and 
millions forced to flee, creating one of the world's worst 
refugee crises today.
    The civil war also created a vacuum for groups like ISIS 
and al-Qaida to flourish, while opening a doorway for Iran to 
advance its goal of regional hegemony and further enabling it 
to threaten our key ally in the region, Israel.
    Defeating ISIS, al-Qaida, and Iran as well as supporting 
Israel remain critical national security priorities that I 
believe most Americans support.
    So I look forward to discussing the report, especially in 
light of the changes in our Syria policy since it was released 
and how we can move forward to accomplish our objectives.
    I yield back.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Sherman, you are recognized.
    Mr. Sherman. it is not surprising that huge bipartisan 
majorities rejected this action by the president in a vote just 
half an hour ago on the floor.
    This is an unforced error. We saw northeast Syria stable, 
our costs and our casualties contained, ISIS in prison camps, 
and the Kurds who guarded them in prison camps and who are 
allies safe.
    Now the Kurds are subject to slaughter and ISIS may very 
well be liberated. This is a mistake of such magnitude it is 
hard to imagine that it is a mistake made in good faith.
    One possibility--is it an intentional gift to Putin? The 
other possibility is that Turkey threatened to wage war against 
the United States, and rather than level with the American 
people the president decided to pretend that this was sort of 
voluntary withdrawal.
    This cutting and running will not only imperil our policy 
in the Middle East, it will undercut our alliances everywhere 
in the world.
    I yield back.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Cicilline, you are recognized.
    Mr. Cicilline. Thank you, Mr. Chairman and the ranking 
member, for holding this important and timely hearing.
    Ten days ago, President Trump sealed the fates of our 
Kurdish partners in Syria when he gave President Erdogan of 
Turkey the green light to invade, setting off a humanitarian 
disaster and reigniting chaos in northern Syria.
    I believe this callous and reckless decision will go down 
in history not only for its disregard for human life but for 
the strategic malpractice of placing American troops in harm's 
way, allowing thousands of ISIS prisoners to go free and ceding 
influence over the region to Russia and the Assad regime.
    Like many, I have been mystified by the Administration's 
decision to allow this invasion to go forward in their ham-
fisted attempts to clean up the colossal mess they have made.
    No matter what they do, the Administration cannot bring 
back murdered Kurdish children. They cannot reclaim our 
American military positions and equipment seized by the 
Russians, and they cannot bring back our credibility, which has 
been squandered as we betray the trust of our Kurdish allies.
    Thank you to our witnesses for being here today. I look 
forward to your views on what efforts we can make as a Congress 
and what actions you would recommend to the Administration to 
try to salvage this horrific situation.
    And with that, I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Do any other members of the subcommittee wish to make an 
opening statement?
    Seeing none, without objection all members may have 5 days 
to submit statements, questions, and extraneous materials for 
the record, subject to the length limitation in the rules.
    And it is now my pleasure to introduce our witnesses.
    Ms. Dana Stroul is co-chair of the Syria Study Group. She 
is a senior fellow in the Washington Institute for Near East 
Policy's Program on Arab Politics and previously served for 5 
years as a Senior Professional Staff Member on the Senate 
Foreign Relations Committee where she covered the Middle East, 
North Africa, and Turkey.
    Before Capitol Hill, she worked on Middle East policy in 
the Office of the Secretary of Defense, at the U.S. Embassy in 
Cairo on economic political affairs, at the U.S. Institute of 
Peace on civilian-military relations in Iraq, and at the 
National Democratic Institute on Gulf Affairs.
    Mr. Michael Singh is also co-chair of the Syria Study 
Group. He is the managing director of the Washington Institute 
for Near East Policy and previously served as senior director 
for Near East and North African affairs at the White House, 
from 2007 to 2008, and director for several Middle Eastern 
countries including Iran and Syria, on the NSC staff from 2005 
to 2007. He also served as special assistant to Secretaries of 
State Colin Powell and Condoleezza Rice as well as staff aide 
to the U.S. Ambassador to Israel.
    Thank you both for being here today. Let me remind the 
witnesses to please limit your testimony to 5 minutes. Without 
objection, your prepared written statements will be made part 
of the hearing record.
    I thank you both sincerely for being here at this timely 
moment, in particular, and we will now start with Ms. Stroul. 
You are recognized for 5 minutes.

     STATEMENT OF DANA STROUL, CO-CHAIR, SYRIA STUDY GROUP

    Ms. Stroul. Thank you, Mr. Chairman, Ranking Member Wilson, 
and members of the committee. Thank you for this opportunity to 
present the final report of the congressionally mandated Syria 
Study Group.
    It was an honor to co-chair this bipartisan group of 
experts along with my colleague, Mike Singh.
    When the Syria Study Group released its final report last 
month, we intentionally started by articulating why Syria still 
matters. Making this case is not something that our group took 
for granted, especially at a time of heightened public debate 
about the U.S. role in the world and what we should invest to 
achieve U.S. objectives.
    The group was unanimous in its conclusion that what happens 
in Syria does not stay in Syria. Moreover, we argue that if 
sufficiently resourced and prioritized, the United States 
retained compelling forms of leverage to influence an outcome 
in Syria that protects U.S. interests.
    Decisions made in Washington over the last 10 days have 
enormous implications for the future trajectory of the conflict 
in Syria and for U.S. interests.
    Mr. Singh will discuss the Study Group's specific 
assessments and recommendations, but needless to say, Syria 
still matters.
    The fundamental drivers of conflict and violence in Syria 
are unchanged today. Notably, there is bipartisan 
acknowledgment of these points here in Congress.
    The conflict in Syria was largely relegated to the margins 
of public attention before last week. Now it is front and 
center of international headlines and has captured domestic 
attention.
    As the executive and legislative branches of the U.S. 
Government work to articulate what U.S. policy can 
realistically achieve when the majority of U.S. forces in Syria 
are withdrawn, our report proposes a series of specific 
nonmilitary recommendations.
    But it is also important to take a step back and remind 
ourselves of the origins of this conflict and situate Syria 
within the broader strategic landscape of U.S. national 
security.
    Syria poses five strategic challenges: international 
terrorism, Iran, Russia, refugees, and international norms. The 
current conflict began as peaceful protests against an 
autocratic dictator, one of the many uprisings of the so-called 
Arab Spring in 2011.
    Though many hoped that protests in Syria might open the 
door to positive change, those hopes were quickly dashed as 
Syria rapidly devolved into a crucible of intersection 
conflicts that have reverberated well beyond the Middle East.
    The Assad regime survived in power for decades by operating 
at the intersection of criminality and terrorism. The United 
States designated Syria as a State sponsor of terrorism in 
1979. We know the nature of this regime.
    Assad facilitated the movement of al-Qaida operatives 
during the Iraq War to attack U.S. forces and he will seek to 
leverage al-Qaida and ISIS fighters in Syria again when it 
suits his needs.
    Syria today provides safe haven to the world's most 
dangerous terrorist groups. Idlib, for example, is home to the 
greatest concentration of foreign fighters since Afghanistan in 
the 1980's.
    ISIS no longer holds territory but was already 
reconstituting as an insurgent force. It will replenish its 
ranks with fighters breaking out of detention facilities today 
and will prey on vulnerable communities as the humanitarian 
situation deteriorates.
    Iran seeks to turn Syria into a forward base for its 
missiles and advanced weapons, and has exploited the conflict 
to entrench itself in Syria's economic and social fabric.
    Israeli strikes and U.S. sanctions prevented Iran from 
consolidating these gains, but come at the increased risk of 
war between Iran and Israel. That risk is now increased today.
    Russia, too, has exploited the conflict. Through its 
intervention in Syria, Moscow established itself as a major 
player in the Middle East for the first time in decades.
    U.S. partners across the region have expanded ties and look 
to Moscow, not Washington, for mediation. Russia is positioning 
itself to broker an agreement between Assad and Turkey and also 
played a role in the agreement reached between the Syrian 
Democratic Forces and Assad.
    The arc of crisis and xenophobic discourse from the Middle 
East to Europe follows Syrian refugees who fled a deliberate 
campaign of violence against civilians by Assad, Russia, and 
ISIS.
    Refugees have strained the economies of Syria's neighbors 
and roiled politics in Europe. Yet, conditions in Syria are not 
suitable for safe, voluntary, or dignified return.
    Finally, the Assad regime and its partners have smashed 
every norm of conflict by targeting hospitals and schools, 
deploying chemical weapons and barrel bombs, and using 
starvation and mass murder as weapons of war.
    To date, there have been no meaningful consequences for 
these actions. We should expect that future authoritarians, 
when faced with peaceful protests, may look to the Syrian case 
and assume that mass civilian homicide will not be challenged 
in any credible way, setting new precedents for conduct in war.
    I only have a few seconds left. Syria is a conflict where 
the two great U.S. concerns--international terrorism and great 
power rivals--come together. It is not a conflict that can be 
contained or ignored.
    The rapid development shaping both the battlefield and 
political realignments in Syria will not end this conflict. 
They will only set conditions for the next phase of war.
    The Study Group's final report remains relevant today, 
which my colleague will now detail.
    Thank you.
    [The prepared statements of Ms. Stroul and Mr. Singh 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Deutch. Thank you, Ms. Stroul.
    Mr. Singh, you are recognized for 5 minutes.

    STATEMENT OF MICHAEL SINGH, CO-CHAIR, SYRIA STUDY GROUP

    Mr. Singh. Chairman Deutch, Ranking Member Wilson, and 
members of the committee, thanks so much for this opportunity 
to testify and thank you to Congress for the opportunity to 
serve as chairman--co-chair, I should say--of the Syria Study 
Group and it was an honor to serve alongside Ms. Stroul as my 
co-chair.
    As Dana noted, Syria does matter and Syria has resisted all 
of our efforts over the years to ignore it, to contain the 
conflict, to cauterize the conflict, as some used to say, and 
it still matters.
    The report that we put out just a couple of weeks ago 
offers what I think is a pretty sobering assessment of the 
conflict there.
    I would not want to give the impression that everything was 
hunky dory before recent decisions. It was not. But in the last 
few days, things have gotten much worse, I would say.
    The report at its core is a strategy of consolidating our 
gains in northeastern Syria, of working toward a political 
settlement to the conflict, which is, ultimately, what is 
necessary to address all of those problems that Ms. Stroul was 
talking about, and taking steps to protect American interests 
if such a settlement could not be reached--if it proved 
elusive.
    At the time we put out our report, our view was the U.S. 
had such a strategy but that, essentially, that strategy was 
undermined by a couple of big things.
    One was inadequate resourcing. A good example of this was 
the Administration's decision not to spend the stabilization 
funding in northeastern Syria that Congress had appropriated.
    And it was also undermined by the perception around the 
world that the high-level leadership in the U.S. Government 
simply was not committed to this strategy we are talking about.
    You know, when our officials were going around the world 
trying to recruit other countries to contribute militarily to 
the conflict, the question that they had in their minds was is 
the United States really going to be committed to this mission, 
and I think that that question has, unfortunately, been 
answered in the negative in recent days.
    Fast forwarding to today, now the United States, I think, 
lacks a strategy for Syria, if I can put it bluntly, and U.S. 
officials are going to need to scramble to reverse engineer a 
strategy to conform with the decisions that have been made by 
the White House in recent days.
    Rather than consolidating our gains, my fear is those gains 
that we have made in northeastern Syria are now going to be 
reversed, and a political settlement on terms favorable to U.S. 
interests I think is now less likely.
    And this is not just the result of a poor decision being 
made by the White House. I think this is also the result of, 
frankly, poor planning because, as I think Congressman Lieu 
said, in many ways this was a long time in coming and yet we 
have no--we see no evidence that this decision by the Turks was 
met with any kind of contingency planning by the U.S. 
Government.
    Instead, we have U.S. forces retreating under fire, 
withdrawing under fire, for maybe the first time since Somalia 
except that fire is coming from a NATO ally, and I think that 
if we all stop for a moment and let that sink in, it is really 
extraordinary.
    The consequences of a U.S. withdrawal--I worry that what we 
are going to see is a cascade effect in Syria and, obviously, 
the report does not get into this because this is all 
relatively new but it is based upon what we learned in the 
course of our briefings.
    My concern is now you will see and have seen already Syrian 
Democratic Forces moving forth to meet the Turkish incursion 
and U.S. forces moving out of Syria, and this creates a vacuum 
in most of eastern Syria.
    And ISIS will use that vacuum to regroup and, potentially, 
to not just break out of prison but to conduct attacks in 
Syrian cities to try to reconsolidate some of its control of 
territory.
    The SDF, as has already been noted, faced with this choice 
between Assad and the Turks, has chosen to make a deal with the 
Assad regime, and we have seen regime forces now move into 
eastern Syria.
    With regime forces come the Iranians and Russians. That 
raises the prospect of Iran linking its Syrian and Iraqi 
proxies in a way that will also perhaps prompt an expansion of 
Israeli air strikes and, thus, an increase in the chance of 
outright conflict between the two.
    I think we will also see security conditions deteriorate as 
the population is brutalized in eastern Syria as it has been 
elsewhere in areas the regime has retaken.
    We may also see a breakout of al-Qaida linked groups from 
Idlib along that northern border corridor.
    There still are problems elsewhere in Syria which are not 
linked necessarily explicitly to what is happening in the 
northeast.
    Those include things like Idlib, like the security that is 
deteriorating in other regime-held areas, the entrenchment of 
Iran in Syrian society, the stalled political process, and the 
shattering of international norms with no real justice or 
accountability, as Ms. Stroul was pointing to.
    So what does the United States need to do? And I will just 
take a few seconds more, Mr. Chairman. In the northeast, I 
think it is vital that we halt and/or limit the Turkish 
incursion and press the Turks for humanitarian access, to sever 
their links to terrorist groups, and not to forcibly resettle 
Arab refugees in Kurdish areas or in areas they are not from or 
do not want to go back to.
    It is important that we try to keep pressure on ISIS. I 
think that probably means trying to keep American troops in 
eastern Syria if that is viable and if--and certainly keeping 
up the air campaign--air strikes against both ISIS and al-Qaida 
linked groups.
    Also, it means ensuring that we hold on to the U.S. 
presence in Iraq, which has also come under pressure in recent 
months, both politically and also perhaps here in Washington.
    I think it is important we keep pressure on Iran by 
supporting Israeli air strikes and by maintaining that garrison 
at al-Tanf, which I anticipate itself may now come under some 
pressure as Russians, Iranians, others try to sort of complete 
the withdrawal of American forces from Syria.
    And I think we will need to see a diplomatic push to hold 
our anti-ISIS and our sort of anti-Assad coalition together, 
maintaining this policy of withholding economic reconstruction 
funds, imposing sanctions, and diplomatically isolating the 
Assad regime.
    Many of our allies may now be inclined to peel off of that 
coalition.
    Just in closing, our report warned that this was not a 
conflict that was over--that it remained dynamic. It remained 
dangerous, and I think that, unfortunately, recent events have 
borne that out.
    I think it is important now that we stop relinquishing our 
leverage and we start using that leverage. My fear is that we 
are not going to see an end to the endless wars as a result of 
recent decisions.
    We are going to find that American forces were actually 
sort of helping to keep the peace and stability there, and what 
will really contribute to endless conflict is that 
deterioration of American credibility throughout the region.
    Mr. Deutch. Thank you, Mr. Singh. Thank you, Ms. Stroul.
    Now I will begin the questioning. We are going to do that 
subject to the 5-minute rule. I will begin, followed by Mr. 
Wilson.
    Mr. Singh, I want to start with where you left off talking 
about American leverage, and Ms. Stroul, you laid out the five 
areas. And I just want to suggest--I want to ask you this 
question.
    If our actions over the past couple weeks in Syria mean 
that we are at risk of--a greater risk of terrorism, expanded 
number of refugees, Russia is stronger, Iran is stronger, that 
when you talk about international norms, which I think is too 
often left out of this_mass civilian homicide as a policy_
barrel bombs, chemical weapons, targeting hospitals and 
schools, starvation hasn't one of the international norms for 
decades been American leadership?
    And if in all five of these areas we are weaker, not to 
mention the fact that we have left our partner, the Kurds, to 
be slaughtered, then isn't that fundamental norm of American 
leadership and American influence challenged and weakened 
dramatically?
    What leverage do we have, Mr. Singh, is my question, after 
we take action like this?
    Mr. Singh. Thank you, Congressman.
    I think we do have leverage. I mean, we remain, obviously, 
a very capable and powerful actor on the world stage.
    We have, obviously, this coalition that we have put 
together to conduct air strikes against ISIS. We have 
sanctions. We have withholding, as I said, of the economic 
reconstruction funding or diplomatic recognition of any 
settlement or of the Assad regime itself.
    But I do think, Congressman, that you make an important 
point about the role of American leadership because I think 
that without the United States to sort of assemble an 
international coalition to put together these tools, not just 
our tools but contributions from others, they will not do it 
themselves.
    They will say, look, the writing is on the wall. Assad has 
won. Russia is calling the shots here. And I think you will see 
hedging strategies from those allies.
    We have, generally, exercised that leadership, I think, for 
a couple of reasons--one, because we have always found it to be 
in our interest to do so, to be the ones setting out the 
initiatives and having others, hopefully, sign up to those 
initiatives, and second, because we have worried about the 
vacuum that is created in the absence of that leadership and 
who might step in, and I think those who step in are other 
States--weaker States, frankly, like Russia, like Iran, who 
lack the ability to challenge us directly except when we back 
off.
    And then non-State actors who, you know, in certain areas 
where there, frankly, is no government, no authority, step in 
and provide some of that themselves in ways which are quite 
destructive.
    Mr. Deutch. I agree, and on the issue of weaker States with 
more power, Ms. Stroul, how does providing Assad and Iran a 
freer hand in Syria undermine the Administration's maximum 
pressure policy that had been our policy and apparently 
continues to be, notwithstanding where we stand?
    Ms. Stroul. The Syria Study Group talked about sanctions to 
some extent being successful in denying Iran the opportunity to 
consolidate its gains in Syria.
    But on its own, a sanctions only policy combined with 
Israeli target kinetic strikes was not sufficient to remove 
Iran or eliminate Iranian influence from Syria.
    I want to return to just what Mr. Singh was discussing and 
your first question as well. The reason the Syrian Study Group 
talked about needing to retain a U.S. military presence in that 
one-third of Syria was not only about completing the anti-ISIS 
fight.
    It was about the broader leverage of that one-third of 
Syria which is the resource-rich part of Syria which provided 
us leverage to influence a political outcome in Syria.
    While anything in terms of U.S. leadership is going to be 
much more difficult, going forward, there are three categories 
of leverage that still, if properly resourced and the State 
Department and our diplomats are empowered to lead a coalition, 
potentially provide some leverage to us.
    The first is reconstruction. Russia and Iran simply do not 
have the financing to reconstruct Syria. So even if Assad 
regains control of that one-third of Syria, he does not have 
the resources and his backers do not have the resources to 
construct and provide economic stability or security for those 
areas.
    That comes through the United States, Europe, and access to 
international financial institutions. Right now, that remains 
relevant.
    Sanctions--many other governments are at this point 
contemplating whether or not to go back into Damascus, 
especially as we see what happens with Assad on the ground.
    But the risks of secondary sanctions and what it means to 
materially support the Assad regime and his backers now remains 
a possible and potent form of leverage if we apply it smartly 
now.
    And finally, political recognition--we still have 
leadership with the Europeans and with international 
organizations to deny political recognition and international 
legitimacy to Assad and that still remains relevant today.
    Mr. Deutch. Before I turn it over to Mr. Wilson, I will 
respectfully suggest--and we will see how the rest of this 
discussion goes--I acknowledge what you are saying. It feels--
though you wrote it only weeks ago, it feels like it is from 
another time. When you talk about properly resourced decisions 
on reconstruction and sanctions and political recognition were 
all based on American leadership.
    When you talk about America being a powerful actor on the 
world stage, that is true. We are a less powerful actor when we 
leave our partners open to slaughter, the partners that we have 
relied upon to help us in this very difficult battle against 
ISIS.
    That is why this feels so, so problematic. But I am sure we 
will get into this more.
    Mr. Wilson, you are recognized.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    Indeed, it is a bipartisan concern about everything we are 
discussing today. it is quite obvious that, in a bipartisan 
manner, we are all concerned and that is why we appreciate so 
much both of you leading the effort for the study and providing 
the study.
    And Ms. Stroul and Mr. Singh, for each of you, the events 
of the past weekend have been really completely upended our 
counter-ISIS strategy.
    What should we do to have the strategy to address what is 
occurred in the last week? And begin with Ms. Stroul.
    Ms. Stroul. We still have not--the U.S. forces presence on 
the ground in Syria was not--we were not fighting ISIS 
directly. We were working through a partner.
    But we were also collecting intelligence and we had a large 
air campaign as well. We do not have to abandon the air 
campaign. Our coalition partners in the defeat ISIS coalition 
have--the coalition has not collapsed yet.
    And I would add that the anti-ISIS coalition has many 
elements, not just military force on the ground. There also a 
counter terror financing element. There is humanitarian aid.
    There's working on countering ISIS propaganda and its 
global ideological appeal. These are still things that we can 
work on.
    And at the end of the day, Turkey is still our NATO ally 
and they have said that they are going to accept responsibility 
for the rest of the defeat ISIS campaign.
    Now, there are a lot of reasons why that is very 
problematic. But at this point, they are still our partner in 
the NATO alliance and if they--while we need to right now think 
about what tools we can compel to shape Turkish actions and 
prevent destructive Turkish actions that can cause the next 
cycle of conflict, there may be still areas where we can work 
with them if we can get to a cease-fire on going forward with 
the anti-ISIS campaign.
    Mr. Singh. So I agree with that. We have to, to the extent 
we can, use the tools that we have, whether it is air strikes--
you know, frankly, whether it is keeping some forces in Syria, 
which I think is not something we should take off the table or 
assume is not possible now. We need to examine whether that is 
in fact viable in current circumstances.
    We need to keep that pressure on, and not just ISIS. But 
there are groups like HTS, like Huras al--Din, who probably 
will benefit from this situation as well because now there is 
this corridor created along the Turkish-Syrian border which 
might allow them to escape Idlib where they are currently sort 
of holed up and spread into other areas.
    Syria and Huras al-Din in particular is committed to 
external plotting and so we need to pay attention to that.
    There is also, though, this risk--and President Trump has 
talked about it quite explicitly--of ISIS members now 
exfiltrating Syria to places like Europe. And so there are 
intelligence and a CT task that comes along with that as well.
    And so I think it is important that we work very closely to 
the extent, again, we can, given the state of the relationship 
with the Turks, with other countries along the borders, with 
Europe on making sure that we are tracking that, finding those 
folks, arresting them if possible, and countering them as well.
    I think all of this is more difficult now in the 
circumstances we are in because, again, as Dana was saying, 
part of the reason we had those forces there was to sort of 
enable other activities in eastern Syria to promote stability 
and good governance, which really would have been necessary to 
keep ISIS from reemerging. It already was reemerging before 
this.
    Now it looks like those missions just will not be possible 
in the current environment and that is going to sort of reduce 
our CT effectiveness.
    Mr. Wilson. I would like to thank both of you because I was 
really concerned we were in a hopeless situation. But, indeed, 
we are not, and we should always remember that Turkey is a 
member of NATO for 70 years--has been such a valued ally, and 
the Turkish people--their relationship to the American has been 
so strong. It is just shocking to see whatever divisions are 
occurring now that I believe will be just temporary.
    On another note, the United Nations has different 
associations with the Assad dictatorship. From each of you, 
what is your view about the relationship of the Assad regime 
with the U.N. organizations?
    Ms. Stroul. The United Nations and the various 
organizations that have been providing humanitarian assistance 
inside Syria have received much criticism for acquiescing to 
the manner in which the Assad regime would like that assistance 
to be delivered to communities inside Syria.
    Our report highlights a very important Security Council 
resolution coming up for renewal at the end of the year, the 
Cross-Border Resolution, which provides the international 
underpinning for the United Nations to enter into areas of 
Syria without the Assad regime acquiescing specifically to it.
    Without that Cross-Border Resolution, all humanitarian aid 
delivered by the United Nations inside Syria would be subject 
to Assad regime approval, which means that delivery of that 
assistance and provision would be weaponized and politicized to 
suit Assad's purposes.
    Mr. Wilson. And my time is up but thank both of you very 
much.
    Mr. Allred [presiding]. Thank you, Mr. Wilson.
    I will recognize myself for now for 5 minutes. I just want 
to thank you both for your work. I am sure it must be 
frustrating to have finished these recommendations and to 
immediately thereafter have these events come up.
    The Syria Study Group was put together to develop 
comprehensive and thoughtful policy for the future. But 
President Trump has instead acted on a whim and in doing so has 
thrown our allies under the bus, I think has emboldened our 
enemies, and I am deeply, deeply concerned about this.
    And, of course, you have seen today with the vote that we 
just took how bipartisan that rejection has been. I am most 
concerned--I want to ask you first about the reputational 
damage that has been done. You might have seen the same 
comments I have seen from the SDF saying this is a stab in the 
back.
    Why would anyone ally with us, going forward, and your 
comments about what we can do and the leverage we may still 
maintain seems to me that it relies on the fact that anyone 
would believe our word at all, which I find to be quite suspect 
right now?
    Mr. Singh. So I think it is a valid concern, Congressman, 
this question of what will the broader reputational or sort of 
credibility damage be to the United States, and we have already 
seen other allies who are not necessarily heavily engaged with 
this issue suggest that this does raise questions about our 
reliability.
    I think we saw some of that from some commentators from the 
region. Some British MPs have raised this question of, you 
know, does Britain now need to sort of play a stronger role in 
some of these conflicts.
    Look, I would say that we want other States, of course, to 
step up and play greater roles in some of these conflicts and 
burden sharing is something we can all agree on. But we do not 
want them to do it----
    Mr. Allred. I do not think we--I do not think we wanted it 
to be this way.
    Mr. Singh. Right. We do not want them to do it because they 
do not think they can rely on the United States or because they 
view the United States as unpredictable because my worry is 
that that will not produce sort of strong allied coalitions 
that are pursuing strategies that advance American interests.
    It will produce things like hedging behavior where they 
reach out to adversaries of the United States, whether that is 
the Russians in this particular theater, China in other 
theaters, because they sort of view that as something they need 
to do for their own national security.
    So I think that even if we decide, we are going to 
intervene less. We are going to try to push others to share 
burdens.
    Still, you want to be doing whatever we are doing around 
the world in sort of a multilateral way as part of a coalition 
rather than sort of simply sort of retreating to Fortress 
America, as it were, and saying to other countries you are on 
your own.
    Mr. Allred. Ms. Stroul, before you address the same 
question, I want you to also specifically note the people in 
this region and how a message like this will be delivered and 
heard in this region.
    Because we are talking about great powers, our allies, the 
U.K., the Russians, the Iranians. But how--in your assessment 
having done this work now for months, how will this affect the 
Kurds, the SDF, the people on the ground who we may hope to be 
able to work with?
    Ms. Stroul. Thank you for that question.
    One of the things the Syria Study Group did over the course 
of our work was travel throughout the region. We could not go 
inside Syria but we went to Turkey and Jordan and Israel and 
Lebanon, and what was striking--I led a delegation to Turkey 
and Lebanon--was that much of the damage to U.S. credibility 
and leadership had already been done from last December 2018 
when there was the first attempt to withdraw U.S. forces 
without much of a plan guiding it or much consultation with 
either our local partners, the SDF, or our neighbors and other 
partners in the coalition.
    So, in general, most of the discussions we had, whether 
with outside experts in these countries, with government 
counterparts, with humanitarian activists in the region, 
generally already doubted whether the United States had the 
commitment and staying power to follow through on what we said 
we were going to do.
    And when it comes to the Kurds, very much the same thing. I 
think a lot of the damage had already been done. We were very 
clear.
    If you look at U.S. official talking point that our 
relationship with the SDF was temporary and transactional, and 
even though no one expected the relationship to change the way 
it did over such a short period of time, they understood what 
temporary and tactical meant, which is why they were always 
talking to everybody else anyway.
    So over the entire course of our relationship with the SDF, 
they maintained communications with Damascus. They always 
talked to the Russians. They will talk to whoever can do 
anything to ensure their survival.
    Mr. Allred. Thank you.
    I will yield to Mr. Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you guys for 
both being here and your good work.
    And I am sad and I am also--the report is frustrating to me 
because it is a bad report. it is a good report but--because of 
how quickly everything has changed.
    But I do not want you to think that your work is useless. I 
think some day it will be a very studied report and you will 
look at how history went and how it could have gone, 
recommendations to prevent it as we WTF this whole thing, 
looking back in history.
    You know, a couple things I want to address before I get to 
the meat of my questions. You know, I was looking--I was being 
pretty nostalgic about Reagan lately and I remember quote. it 
is ``Let's set the record straight. There's no argument over 
the choice between peace and war but there's only one 
guaranteed way you can have peace and you can have it in the 
next second--surrender.''
    And I saw a tweet by the president the other day where he 
talked about peace and creating peace and we are creating peace 
everywhere, and I will tell you, if you surrender and leave you 
can create temporary peace for yourself.
    But I do not think that is the mission of our country. When 
you look at the post-World War II order when we finally 
realized that isolation was not--did not work until we had this 
strain of weird isolationism that kind of came back into our 
body politic.
    But in that history, you know, when we won the Second World 
War we inherited the, basically, industrial capacity of Germany 
and Japan and we had this massive industrial revolution, which 
we all, you know, look back on today and we talk about in the 
economy bringing manufacturing back.
    And that was a result not of American isolationalism but of 
actually America being involved in the world. And when we turn 
the post-World War II order on its head, I think the 
consequences are really difficult to see in the short term but 
we are able to see an immediate result of that in the decision 
made the other day.
    Now, I want to compare that quote of Reagan to one that was 
just made. ``Our soldiers are out of there. Our soldiers are 
totally safe. Syria may have some help with Russians and that's 
fine. It's a lot of sand. They've got a lot of sand over there 
so there's a lot of sand that they could play with.''
    It is a real difference in leadership styles, to put it 
quite politely. This idea of war fatigue that I hear people 
talk about, it really ticks me off, too. Yes, you are tired of 
seeing it on television. In Congress, we probably are tired of 
talking about it. It has been happening for a long time.
    But if anybody had a right to be war fatigued it was my 
grandparents after World War II, and what happened is America, 
instead of leaving Europe and saying it has a lot of destroyed 
property, America said, we are going to stay, and three 
generations of Americans staying there.
    Finally, the third generation behind the Iron Curtain tore 
it down because they were desperate for a taste of what we had 
and there was a whole world that's basically free right now 
because of that.
    Fifty soldiers were preventing an invasion by Turkey, and I 
want to be very clear. Anybody that believes that 50 soldiers 
that Turkey would have attacked if the president said we will 
defend our soldiers with the might of the U.S. military, you 
are fooling yourself, because Turkey never would have been that 
stupid.
    It would have been a short fight. Nobody wants to fight a 
NATO ally, me especially. But I do want a president that is 
going to stand up for American positions and this is weakness, 
and I think there is no other way to put it.
    Instead of turning out away from the world, now, you know, 
we are spending a lot of time in Congress just fighting each 
other like we are enemies because we are, like, drama queens 
and we have to be addicted to drama.
    So we got to fight somebody and so we just argue here. We 
cannot get anything done, and we forget that there is a real 
enemy out there that wants to destroy us.
    So, Mr. Singh, let me just ask you a question, and when it 
comes to Turkey, I introduced today the United States-Turkey 
Relations Review Act.
    It is a bipartisan bill with Mr. Cicilline and it would 
require the Administration to review U.S.-Turkish relations and 
report it to Congress, the feasibility of relocating American 
personnel and assets from Incirlik because this is going to be 
a big problem with the airbase there.
    Let me ask you, Mr. Singh--the President said that he was 
going to--his chief campaign promise was to defeat ISIS. It was 
not end endless wars. That is new. It was defeat ISIS.
    He said He is going to stay in Syria as long as Iran is 
doing their nefarious activity there. Has Iran withdrawn their 
support of the Assad regime and, if not, what kind of support 
does Tehran still send Damascus?
    Mr. Singh. Thank you, Congressman.
    No, Iran has absolutely not withdrawn its support for the 
Assad regime. We see the Iranians sending not only their own 
forces. You do have Revolutionary Guard Corps officers, for 
example, in Syria.
    But we see them cultivating and sometimes sending over 
proxies. Hezbollah, some Afghani and Pakistani forces have been 
there as well as Syrian forces who they themselves have 
recruited and organized and paid.
    But we also see Iran really sort of entrenching itself in 
the economic and social fabric of Syria, which tells you that 
they are there to stay.
    Iran would be turning Syria into sort of a forward 
operating base for its missiles and other power projection 
tools if it were not for Israeli air strikes which have 
effectively stopped them from doing that.
    But the Israelis themselves will tell you that those air 
strikes have stopped Iran from engaging in certain activities 
but they have not deterred Iran from continuing to sort of 
focus on Syria as their power projection base.
    Mr. Kinzinger. Thank you. I yield back.
    Mr. Deutch [presiding]. Thank you, Mr. Kinzinger.
    Mr. Malinowski, you are recognized for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman. Thank you, guys. I 
want to completely associate myself with Mr. Kinzinger's 
remarks from start to finish.
    First of all, you did a fantastic job and I wish you were 
here under circumstances that were different. But here we are. 
We have had maybe two and a half years in which there was such 
a thing as the Trump Administration that was resisting Trump, 
and I do not think there is an administration anymore.
    We have a President who is acting on his impulses, and the 
policy of the United States right now is that Syria is not our 
problem. That is what he said. There is just a bunch of sand 
and they can all play in their sand.
    It is now the official policy of the United States that 
Russia hates ISIS as much as the U.S. does and that the PKK is 
a bigger threat than ISIS. These are all things that the 
President said today.
    Anyone who wants to assist Syria in protecting the Kurds is 
good with me--Russia, China, Napoleon Bonaparte. This is our 
policy and we know the second, third, fourth order of 
consequences can be catastrophic.
    I am a bit less worried right now about Turkey massacring 
the Kurds because we know what is happened. The Kurds have 
struck their alliance with the Assad regime and with the 
Russians and that will provide some protection.
    I am more worried about the Assad regime now moving into 
eastern and northern Syria, which is populated not just by 
Kurds.
    I am worried about the inevitability, I think, of Turkey 
now deciding that in order to deal with its security problems 
it no longer has any interest in dealing with us because it is 
not our problem; they are going to be dealing with the Russians 
and with Iran.
    We saw Putin was in the UAE and Saudi Arabia telling them--
I am sure we know what he was saying--you cannot trust the 
United States but I have some things that I will offer to you 
and you know that I will act in defense of our interests.
    And I think, worst of all, He is a step closer to getting 
the world he wants--a world with no values, no norms, no 
rules--a world where powerful countries and leaders can do what 
they want to whomever they want.
    America, you go do your thing. Russia can do its thing, and 
that makes me incredibly sad and I wonder what can we do about 
it.
    And I am struggling with certain things. One question is, 
do we as a Congress push for maintaining some troops in Syria. 
I have a bipartisan bill that was relevant a few days ago. I do 
not know if it is still relevant. It basically says you cannot 
go below a thousand in Syria unless you can report back to the 
Congress the answers to certain obvious questions--the 
questions we have been talking about here.
    Is that still a relevant approach? And I would also like to 
ask you both about our relationship with Turkey. There is a lot 
of sentiment right now that we need to punish Turkey hard for 
what it did and I hate what Turkey did. It was despicable.
    But I also worry a little bit that we are obsessing right 
now over punishment of Turkey because we want to absolve 
ourselves of a decision that President Trump made and, frankly, 
to be nonpartisan here, to absolve ourselves of mistakes that 
we made in the Obama Administration as well.
    it is very convenient to say that this is all now the fault 
of one country that did a terrible thing rather than looking at 
ourselves.
    And so I wonder what your advice would be on those two 
questions. On troops, is there something that Congress can and 
should do? And on Turkey, is it actually wise to sanction 
Turkey severely for doing something that the president told 
them that they could do?
    If we are ceding the Middle East to Russia, is it in our 
interests really to pull out Incirlik now and potentially cede 
a NATO ally to Russia as well?
    What should we do?
    Mr. Singh. So, thank you, Congressman.
    I think they are both very relevant questions right now. I 
would say that, look, had we negotiated a security mechanism or 
safe zone with Turkey, which Ambassador Jeffrey was in the 
process of doing right before the decision to end that and to 
withdraw.
    Presumably, we would have taken our troops and perhaps 
moved them south. We would have continued activity south of 
that buffer zone or security zone.
    And so, in theory, there is not a reason we cannot do that 
now. My question would be, because security for American forces 
was largely being provided by the SDF--you know, we had a very 
small number of troops, as you know, Congressman, working with 
the SDF.
    If the SDF itself has left these areas and the regime has 
moved in, is there really an environment in which we can work?
    I do not know the answer to that question. I think it is a 
question that Congress has to ask DOD and get a clear answer 
to, hopefully, in the days to come.
    On the question of Turkey, look, I think that we need to 
recognize, as many of you already have, that the seeds of this 
crisis were sown when we made this decision to work with the 
YPG Kurdish militia, knowing that it was considered a great 
security threat by Turkey.
    We apparently, as you said, Congressman, gave Turkey the 
green light to do this. So the Administration has said that we 
did not. But it does not seem like there was opposition to the 
idea.
    I think we have to take these things into account in our 
response to Turkey. My own view is that we should be now trying 
to shape Turkish actions.
    Using sanctions or the threat of sanctions, not to punish 
Turkey but to try to lay down sort of some conditions or red 
lines for Turkey, whether it is humanitarian access, whether it 
is limiting their incursion, whether it is, again, severing 
their links with some of these extremist proxies that they seem 
to be using, and if we do need to use sanctions to use them in 
a way which is sufficiently strong that it will cause Turkey to 
really reconsider some of these actions.
    There is, I think, this overall question now hanging over 
the U.S.-Turkish relationship, especially because of Turkey's 
apparent targeting of U.S. troops. That is not behavior which 
is sort of compatible with this NATO alliance that we have.
    And so I think there will be a long-term cost for sure to 
the U.S.-Turkish relationship. But in the sort of near-term 
question of sanctions, I would say use them to shape, not 
punish.
    Ms. Stroul. The Syria Study Group spent a long time 
thinking about the U.S.-Turkey relationship and I would just 
like to highlight and underscore what we did say. We did not 
call for severing the relationship with Turkey.
    We acknowledge the links between the PKK, a U.S.-designated 
foreign terrorist organization in Turkey, and the YPG element 
of the Syrian Democratic Forces in Syria, and we acknowledge 
that U.S. support for the SDF was a major irritant in the U.S.-
Turkey relationship.
    We did not call for severing the U.S. relationship with the 
SDF at this time and we also did not say that Turkey offered a 
viable alternative military force to continue the anti-ISIS 
fight, if not for the U.S. relationship with the SDF.
    So there were very clear things that we said. At this 
point, could the threat of sanctions shape some Turkish 
behavior that would otherwise be very destabilizing, for 
example, the forcible relocation of certain refugees into areas 
that are not their homes in Syria.
    There are reports of atrocities and war crimes being 
committed by proxies--Turkish-supported proxies. These are 
things that--well, I do not know the content of the President's 
phone call with President Erdogan. Clearly, these are things 
that sanctions may be able to shape.
    So I would leave it there.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Mr. Reschenthaler, you are recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    For the last decade, Syria has been ground zero for a 
devastating proxy war. The country presents some of the most 
pressing humanitarian and national security challenges that our 
Nation faces.
    It is essential that the United States maintain a strong 
footprint abroad. All right. I am not sure what is going on 
with my mic.
    All right. It is essential the United States maintain a 
strong footprint abroad, and as history has shown, when the 
United States turns its back, chaos erupts and our enemies fill 
that power vacuum.
    It is refreshing to hear my colleagues across the aisle 
have concern over Syria and present a position of having a 
strong U.S. presence abroad.
    I wish I would have seen this kind of vigor and these 
positions when President Obama allowed Assad to ignore a red 
line and I would hope that this newfound vigor and these new 
positions transfer when speaking about Venezuela, about 
defending the Hong Kongers and others that are seeking liberty 
and freedom from across the world.
    But I applaud the new positions that my colleagues across 
the aisle have found and I also applaud President Trump's 
continued actions to hold the Syrian regime in check by 
attacking military targets after its chemical attack on 
civilians and for imposing sanctions on officials in Assad's 
authoritarian government.
    I also commend the President's swift actions in Turkey, 
whose irrational actions have endangered a key U.S. ally, 
empowered Iran and Assad, and set us back in the global fight 
against ISIS.
    There are no--these are not the actions of a NATO ally and 
I am proud to cosponsor a sweeping sanctions bill introduced by 
Republican Conference Chairwoman Liz Cheney.
    With that said, I have two questions for the witnesses.
    First, on August 25th, the Israeli air force acted in Syria 
to prevent an Iranian drone attack on Israel. What does the 
report recommend related to U.S. support for allies confronting 
threats from Syria, in particular, Israel?
    Mr. Singh. Thanks, Congressman.
    Well, the Israeli campaign against Iran--I think, if you 
step back, it is really extraordinary in many ways because they 
have managed to sort of deter--maybe not deter, they have 
managed to limit Iran's activities in Syria through these air 
strikes.
    And yet, Iran has not had an effective response against 
Israel and they have managed to do this in coordination with 
Russia, which is in this alliance with Iran.
    And so I think that the Israeli campaign really sort of 
deserves accommodation and we should support it however we can, 
whether that is intelligence sharing, whether that is 
diplomatic cover if they need it.
    And we should also, frankly, use our own tools to counter 
what Iran is doing, you know, sanctions, tools, and whatever 
other tools are available to us.
    Ms. Stroul. I associate myself with Mr. Singh's comments.
    Mr. Reschenthaler. All right. You guys are making it easy.
    All right. One more question. How do we ensure the 
situation on the border between northeast Syria and Turkey is 
not abused by Iran to expand its presence in the country and 
solidify what I am seeing as a land bridge between Tehran and 
Beirut?
    Ms. Stroul. So this is where Mr. Singh talked earlier about 
the U.S. forces that remain at the al-Tanf garrison, which is 
not in the area of northeastern Syria that Turkey is currently 
focused on.
    So in the view of the Syria Study Group, maintaining those 
U.S. forces at that garrison is critical for preventing Iran 
from consolidating those lines of communication through Syria.
    And given the movement or redeployment of other U.S. 
forces, it is highly likely that Assad, Russia, the Iran--
Iranians or Iran proxies will challenge our position there.
    They have done it before, and that was under former 
Secretary of Defense Mattis who responded with overwhelming 
force and sent a clear signal.
    So this would--in terms of maintaining that U.S. force 
presence, our adversaries need to believe that there is a 
credible threat of military force on the table and that is 
something that, hopefully, the executive branch will be 
contemplating of making quite clear.
    Mr. Reschenthaler. Thank you again. I commend you on your 
work and I yield the remainder of my time.
    Mr. Deutch. Thank you, Mr. Reschenthaler.
    Mr. Vargas, you are recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Mr. Chairman, and again 
thank the witnesses here today.
    I remember the first time I had the opportunity to meet the 
Kurds as a group. It was former Congress Members Darryl Issa 
and John Mica and I. We traveled to Baghdad. Then we traveled 
there.
    We were briefed by our embassy and also military personnel. 
We went up to Erbil. In Erbil, we met with Kurd leadership 
there. Then we met with the military arm, the Peshmerga.
    And during that time, it was interesting because our 
military and our Special Forces in particular told us how we 
were allied with the Kurds there and how in fact they were 
doing very heavy fighting alongside of us and we could trust 
them, and how they were our allies and our friends.
    From them, of course, I heard of the situation in Syria 
also. Of course, two different areas but very similar, they 
said, was the situation.
    And so anyway, I came away thinking that we were allies and 
we could be trusted by them and they could be trusted by us, 
and what has happened here recently, I think, is a disaster--a 
terrible disaster--and to listen to some of the military 
personnel--our military--say how they are ashamed of what we 
have done is particularly devastating when you think of how our 
military each and every day put their lives on the line, are 
out there fighting with those that expect to have their backs 
and we their backs. It has been sad.
    With that being said, I am very nervous about the Kurds now 
in Syria--in particular, ethnic cleansing. I know that they are 
trying to cut deals now with Assad and it is like trying to cut 
a deal with a snake.
    You know, what assures them that they will not be wiped 
out? I say this--that for 2 years we had a family of Kosovars 
live with us because of ethnic cleansing in Kosovo.
    So I am very familiar with that, and I want to know what 
can we do--what can be done so these Kurds are not wiped out? 
As we saw, the atrocities are already happening.
    What can we do?
    Mr. Singh. Thank you, Congressman.
    I think it is a valid concern. You know, we could be 
concerned about this on, frankly, both sides of the sort of 
Turkish line of advance, right, because we have not really had 
insight into what is been happening in the other Turkish 
occupied enclaves of Syria--the Afrin and Euphrates Shield 
pockets.
    And so one thing that we will want from the Turks, you 
know, if we are going to go there and try to talk to them, if 
we are going to be threatening them with sanctions is we will 
want transparency and humanitarian access into any zone they 
occupy to ensure that these things are not happening, whether 
it is at the hands of Turkish authorities or probably more 
likely at the hands of some of these extremist proxies who we 
have seen up to no good in recent days.
    On the other side of that line, I think it is even more 
challenging because, obviously, the Assad regime has brutalized 
the populations in areas that it has reoccupied, and so too 
have Russian and Iranian-backed forces.
    And I think they will view the SDF fighters and officers as 
a threat to the Assad regime's reconsolidation of that rule. So 
I think it is going to take things like not just sanctions, but 
one of the things we talk about in the report is we should be 
willing to threaten the Assad regime with the use of force if 
it is deliberately targeting groups for, you know, war crimes 
and atrocities and so forth. It should not necessarily be the 
case that that type of response is only used when, say, 
chemical weapons are used.
    I think the Assad regime, Iran, they need to understand 
that we are watching and that there are going to be 
consequences for war crimes, for atrocities, for ethnic 
cleansing, as you said, Congressman.
    Mr. Vargas. Ms. Stroul.
    Ms. Stroul. I agree with what Mr. Singh said and I would 
only add that when it comes to the Kurdish communities in 
Syria, they never put all their eggs in the American basket.
    For them, this is about survival. Whether that survival is 
no autonomy and no integration of the force structure that they 
created into Assad's army, which has been one of their 
requests, or desire for Kurdish cultural rights and language in 
schools.
    But if Assad, with Russia, can guarantee their survival or 
provide a security guarantee that the United States will not 
and face between Turkish operations, which could result in 
ethnic cleansing or demographic reengineering like we have seen 
in places like Afrin or the Euphrates Shield area, versus 
subjugation to Damascus, they are going to pick Damascus.
    And then the next level of questions for the United States 
is what does our policy look like or our approach to Syria look 
like if our former partner is working with Damascus and Russia.
    Mr. Vargas. Well, my time is up. But I do want to say that 
I think it is very important then to have this transparency and 
this humanitarian access because I do not think anything good 
is going to come from this--anything at all.
    Thank you.
    Mr. Deutch. Thank you, Mr. Vargas.
    Mr. Trone, you are recognized for 5 minutes.
    Mr. Trone. Thank you, Mr. Chair.
    The main point of the report is that Russia and Iran, they 
share many interests when it comes to involvement with Syria. 
Both are looking for increased regional influence, and they 
have a willing partner now in Assad.
    The withdrawal of U.S. counter terrorism efforts directly 
enables Russia and Iran to be more enmeshed and exert greater 
influence.
    What concrete steps will the U.S. need to take, given the 
recent events, to combat the outsized Russian and Iranian 
influence in the region? Is it even feasible?
    Ms. Stroul. We spent a lot of time debating in the Syria 
Study Group whether or not what unites Russia and Iran in 
backing Assad could--were there areas of tension or fracture 
that we could exploit to break that alliance apart and then 
provide us some opportunities via a political process our own--
our own leverage or military operations to then move forward.
    Our conclusion is that Russia and Iran have more in common 
and both have the goal of keeping the United States out and, 
unfortunately, recent developments probably only solidify for 
them that their alliance and their backing of Assad is working.
    Mr. Trone. So you found no divisions of interests at all?
    Ms. Stroul. There is certainly tensions about Security 
Force activities, where certain Security Forces operate, 
whether or not behavior of the Assad regime could be modified, 
for example.
    Russia is a member of the U.N. Security Council and would 
probably like to enable some sort of political process that 
could fold Assad back into the international community.
    Iran is a pariah State and not in the international 
community, in that sense, so probably does not share that same 
objective. But, again, our conclusion at the end of the day was 
that there was more unifying Russia and Iran specifically in 
their opposition to the United States and minimizing U.S. 
leadership in the region.
    Mr. Trone. OK. So what does the Syria Study Group recommend 
regarding Iran's presence, you know, in Syria? Assuming you 
believe Iran should not maintain a military presence in Syria, 
what recommendations do you have to achieve that goal?
    Mr. Singh. Congressman, if you look at the report, we have 
some recommendations, largely which sort of focus on things 
like exposing Iran's role in Syria, because a lot of what Iran 
is doing is not of a kind of overt military nature.
    A lot of that is very much in the news because you see the 
Israeli air strikes, for example, against Iranian missiles and 
things like that. But there is this economic and sort of social 
element to it as well, and I think that activity does not get 
sufficiently exposed.
    I think we should have a greater effort to sort of put it 
into the sunlight, as it were. But what I would also encourage 
is not to think of what Iran is doing in Syria as somehow an 
isolated issue that we have to respond to just there.
    One of my concerns is, you know, we now have still a very 
significant presence across the Middle East. But there are a 
lot of people who are questioning our commitment to that 
presence, and I think that is actually a dangerous position to 
be in.
    We have seen the Iranians escalate regionally. You know, 
their attacks on tankers, reportedly--reportedly, this attack 
on Abqaiq in Saudi Arabia.
    I think this adds even more importance to the idea that we 
need to respond to those types of Iranian escalations lest they 
look at this Syria decision and say, hey, where else can we 
press on the United States to sort of get them out of other 
places in the region we do not want them, right.
    So I think it is important that we look at this from a 
regional perspective and not just a Syria-specific perspective.
    Mr. Trone. So they look upon us as an easy mark?
    Mr. Singh. OK. I mean, you know, if--we had the Carter 
Doctrine in 1980 and then the Reagan corollary, right, which 
said that we had a sort of--we saw a vital interest in the 
Gulf, for example, and we were willing to defend that interest 
militarily.
    Well, we did not at the time have a heavy presence in the 
region and now, again, we have the opposite, right. We have 
basically said that we are not sure we see a vital interest for 
the United States.
    President Trump has said we are not--He is not sure he sees 
a vital interest for the United States, whether it is with 
tanker traffic in the Gulf or here in Syria.
    And yet, the presence--the U.S. military presence--is much, 
much larger than it was at the time of, say, the Carter 
Doctrine. And, again, this kind of asymmetry--heavy presence 
but maybe receding commitment--I do fear will embolden or 
encourage adversaries like Iran to try to take shots at us.
    Mr. Trone. Quickly, the Russians have now--force have 
indicated--entered northeast Syria with our withdrawal. what is 
Russia's objective there in the region and how will it respond 
to Turkey's incursion?
    Ms. Stroul. Russia's objective in Syria is to take back all 
of Syrian territory under Assad--to deliver a win for Assad, 
not just militarily on the ground but politically.
    So what the Russians want is not just full consolidation of 
territorial control but reconstruction, return of refugees, and 
international legitimacy for the Assad regime.
    Mr. Singh. And I will just say, Congressman, that I think 
that what they also want is to just deal defeat to the United 
States. And, you know, I am one who would like to say that we 
do not need to have a zero sum approach to Russia. Not 
everything that Russia does is inherently threatening to the 
United States.
    You know, I would like to be able to say that maybe Syria 
is a place in ideal conditions where you could find room to 
agree or cooperate with Russia. But I think that is just not 
the case because I think Moscow does not see it that way.
    I think Moscow sort of wants to show the rest of the 
region, again, that the United States is not reliable. They 
want to thwart what they see as kind of a regime change effort 
by the United States.
    They want to paint our policy in those terms and they are 
not, I think, interested in sort of win-win solutions and so 
forth.
    Mr. Trone. Thank you.
    Mr. Deutch. Thank you, Mr. Trone.
    And finally, Ms. Jackson Lee has joined us here today and 
without objection happy to recognize her for 5 minutes of 
questions.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me acknowledge the chairman and the ranking member for 
their courtesies. This is a committee that I used to be on and 
I have a great affection and respect for all of the leadership 
of the committee.
    I happen to serve on the Homeland Security Committee and 
the Subcommittee of Crime and Terrorism. So it intermingles 
with what I think is crucial is diplomacy. And the work that 
you have done let me applaud you for the work.
    I went to Syria many years before 2011 and went to 
Damascus. Spoke to the then new and fresh Assad, which some 
thought there might be a difference. To my dismay, there was 
zero difference from his father but in another era.
    I want to pose these questions, and as I do so let me just 
read this statement from an Army officer who formally served.
    ``I cannot look at the atrocities,'' an Army officer who 
served in Syria last year said of videos posted online, of 
Turkish--backed fighters executing Kurdish civilians. ``The 
ISIS mission is going to stop. ISIS is going to have a 
resurgence. We are going to have to go back in 5 years and do 
it all over again.''
    Now, I want you to comment on that. But I do want you, 
first of all, you are obviously doing your study. But what is 
your assessment or maybe people who you met are calling you 
about the shear violence and loss of life, particularly among--
because remember when the conflict first started and there were 
Doctors Without Borders and the United States was in we were 
seeing just the shear miserable violence that the Syrian people 
were going through.
    Certainly, the Kurds have taken their share. But help us 
understand how deep the violence is, how children are impacted, 
maybe from your discussions that you had or people calling you.
    Thank you. Thank you to both of you as co-chairs.
    Ms. Stroul. Thank you so much for that question.
    We consulted, broadly, with humanitarian and human rights 
activists and organizations as well as the Syrian-American 
community and those organizations that are collecting evidence, 
documenting evidence of atrocities, abuses, and war crimes.
    What we heard consistently from all--from all of these 
communities and individuals was a plea for the United States to 
prioritize issues of civilian protection and a perception that 
that has not been a front and center policy priority of the 
United States.
    Many asked us to recommend that the United States make very 
clear its willingness to use military force in response to 
civilian casualties and the shear mass homicide tactics of the 
Assad regime--that it is not just chemical weapons but barrel 
bombs, medical sieges, starvation, forced disappearances, 
torture, et cetera--and that these issues are not front and 
center and not talked about enough in U.S.-led situations and 
that gives the perception that we do not care about those 
issues.
    Ms. Jackson Lee. And you would think that it is now 
exacerbated in light of where we are today--violence, 
decapitation, et cetera?
    Ms. Stroul. The perception that President Trump greenlit a 
Turkish operation in which we have seen Turkish-backed forces 
firing on civilians, ISIS detainees escaping from prisons, and 
the discussion that there will be involuntary resettlement of 
Syrian refugees into areas that are not historically where they 
come from all send the signal that issues of civilian 
protection are not a priority of the United States.
    Ms. Jackson Lee. Let me continue.
    You mentioned the fact that at the time the conflict was 
not winding down and you called it dynamic and dangerous. How 
dangerous is it now, in light of the actions of the president 
that allow Turkey to come in without restraint and killing 
without restraint?
    Mr. Singh. So I think, Congresswoman, that it is in fact 
quite dangerous now, more dangerous now than it was before in 
large part because you will now have potentially ISIS breaking 
out of prisons.
    you will have a reduction in the counter terrorism pressure 
on ISIS as well as some of these other jihadist groups. You may 
have an expansion of Iran into eastern Syria and, as I said, 
sort of a linking of the Syrian and Iraqi proxies of Iran and 
perhaps an expansion of the war that's taken place between 
Israel and Iran over these issues.
    And to the sort of very first part of your question, 
Congresswoman, about the U.S. military operation, you know, I 
think that this lumping of Syria into the endless wars category 
has been incorrect, frankly.
    I think that if you were opposed to the U.S. intervention 
in Iraq in 2003 or if you were skeptical about our military 
presence in Afghanistan, in a way you should be pleased by the 
way the intervention in Syria has been conducted because you 
had a very small American military footprint rallying a 60,000 
to 70,000 strong partner force, and that partner force out 
front really doing the bulk of the work and the fighting and 
U.S. forces really playing an advisory role.
    And I think that the U.S. military has considered that to 
be a very significant success and perhaps even a model for 
future interventions, and it is a shame that sort of we have 
now relinquished a lot of those gains which that model was able 
to deliver.
    You know, I think that, again, to put it together in this 
kind of endless war category is a big mistake and I do not 
think that is how folks see it in the government.
    Ms. Jackson Lee. I know my time has expired.
    Mr. Chairman, if I could just squeeze in this national 
security question, if I might.
    In the report it says the liberation of ISIS-held territory 
does not eliminate the group's threat to the United States, 
which this was in your report.
    We now have a circumstance of a free for all--Turkish 
fighter jets, we have bombing, fleeing, and you already 
indicated in your report preceding this how dangerous, and let 
me just for the record put on my dismay, Mr. Chairman, of 2,000 
troops in Saudi Arabia and troops that wanted to stay and were 
being effective in Syria are now being, and I want to use the 
term imploded--they are just being scattered--I mean, U.S. 
troops.
    And I think, Mr. Chairman, you mentioned that we might have 
had a success that we could have modeled after--a few number of 
soldiers. But they were a powerful statement.
    But your assessment now of the level of the national 
security threat that this region may be in light of where we 
are in the aftermath of Turkish actions.
    Ms. Stroul. So even though ISIS has been pushed out of the 
territory that it holds, its command and control, its 
leadership structure, is still in place. It still has the 
ability to raise funds.
    Now those 2,000 foreign fighters that were in detention 
facilities under SDF control, not to mention the thousands of 
Syrian and Iraqi fighters that were in detention, are likely 
not going to remain in detention for much longer, which means 
the ranks of ISIS will be replenished, access to finances, 
global brand appeal, plus leadership.
    We still have Baghdadi, the leader of ISIS, giving speeches 
that end up on the internet, talking about its plan for waging 
a long-term war.
    So I would say the national security threat is very high 
and ISIS----
    Ms. Jackson Lee. Very--I did not hear you. Very----
    Ms. Stroul. It is high.
    Ms. Jackson Lee. Very high.
    Ms. Stroul. ISIS still retains the means and the desire to 
use territory in Syria to plan external attacks.
    Mr. Singh. Congresswoman, I would just add just a couple of 
specifics to this.
    You know, President Trump criticized our European partners 
a lot for not repatriating their own citizens among the ISIS 
fighters. There were a couple thousand foreign fighters. And he 
was right to do so, frankly.
    But I think, you know, the irony is that the way things 
have now developed over the last few days, this process of 
repatriation, which requires visits to the camps and kind of 
consular work is now essentially impossible to do.
    So even if folks are kind of remaining contained within 
this area, getting to them to sort of bring them out and sort 
of put them into a judicial process of some kind or a national 
security process is going to be impossible.
    Another question would be to what extent were we able to 
have completed the process of, say, cataloging the fighters who 
were in these camps. Do we know who was there and who now may 
sort of be on the loose.
    My understanding, and we talk about this in the report, is 
that was ongoing. I do not know if it was finished before this 
decision was taken or not and that might be--it might be a 
question to ask the government.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    One military person--as I close--called this a real mess 
and I think he was being more than delicate or polite. I am 
appalled at where we are today and I think you have done us a 
good service but you have also emphasized that the national 
security threat is heightened and we create this mess.
    And I hope that maybe Congress can work together to try to 
bring some aid, comfort, and redesign of where we are today.
    Mr. Chairman, your committee is very important in this and 
I thank you for allowing me to be here.
    Mr. Deutch. Ms. Jackson Lee, thank you for being here. 
Thank you for your contribution to our committee today. 
Appreciate it.
    Ms. Jackson Lee. Thank you.
    Mr. Deutch. And finally, Mr. Sherman, you are recognized 
for 5 minutes, and I would note to other members who may be on 
their way that we have a hard stop at 4:30.
    So, Mr. Sherman, you have time and you are recognized.
    Mr. Sherman. The Turks are relying to a significant extent 
on these Arab tribal militias. To what extent is Turkey relying 
on them and to what extent are they ideologically simpatico 
with ISIS?
    Mr. Singh. Thank you, Congressman.
    So I am not sure they are tribal militias. I think that----
    Mr. Sherman. They have been described that way, but OK.
    Mr. Singh. If you look at who they are, they are probably 
composed of some people who were refugees--displaced persons 
from other parts of Syria.
    Some of them may be former ISIS or other sort of members of 
other jihadist groups.
    Mr. Sherman. Or al-Qaida. Yes.
    Mr. Singh. Or other sort of--the rebel groups. I mean, 
there were over a thousand of these different rebel factions in 
Syria in the past and so some of them have probably made their 
way into these groups who are now fighting at Turkey's behest.
    I cannot tell you to what extent sort of Turkey's relying 
on them versus its own forces. I just do not have that 
information.
    But, clearly, if you look at what we see in the open 
sources, it does seem as though there is a very heavy component 
of these sort of Arab proxies being used by the Turks.
    Mr. Sherman. And to how--to what extent are these groups 
that have similar ideology to either al-Qaida or ISIS?
    Ms. Stroul. Over the course of 8 years of conflict in 
Syria, there are no longer groups that we would describe as 
moderate. We tried to support moderate forces. We called them 
the Free Syrian Army.
    That support no longer happened and a lot of it was because 
many of those fighters that we wished to work with would not 
meet U.S. vetting standards in terms of what their affiliations 
were.
    I would also note that----
    Mr. Sherman. I would point out the Kurds qualify as 
moderates.
    Ms. Stroul. Congress put in place very serious vetting 
standards before the U.S. could provide assistance and 
equipping. So I assume that before U.S. forces provided that 
support to the SDF those fighters and units met U.S. vetting 
standards.
    And I would also add that a lot of the forces and militias 
that the Turks appear to be working with there has been some 
good work done by other individuals trying to study what their 
motivations are.
    A lot of it at this point is criminality. There is not--
there is not much left for your average Syrian to do. There is 
no economy. There is no economic opportunity.
    So some of this is ideological or unsavory types that, 
certainly, the United States would identify as violent 
extremist organizations and affiliations. And on the other 
hand, there are criminals and thugs that are working on behalf 
of the Turks.
    Mr. Sherman. Let's see. So how far do you expect Turkey to 
go into the region? Is it going to limit itself to 70 miles to 
the--70 kilometers south of their border or is their goal to 
take over all the territory?
    And I realize they may not achieve their goal because of 
the Russians, Iranians, and the Saud forces. Is their goal 70 
kilometers or is their goal something else?
    Mr. Singh. So, Congressman, the real answer is I do not 
know and I am not sure any of us--I am not sure anyone in the 
Administration really knows.
    The Turks had talked about creating a 30-kilometer deep 
buffer zone and then sort of, you know, 300 miles across, which 
would have been both a security zone for the Turks as well as 
maybe an area in which to resettle some of the Arab refugees--
Syrian Arab refugees that had been in Turkey.
    We have heard U.S. officials say, as I am sure all of you 
have, that the Turks have gone farther than they anticipated, 
and by the Turks I assume they really mean these kind of proxy 
forces that you were asking about, Congressman.
    So I assume they will be guided both by whatever military 
objectives they have as well as by this now move by the regime 
plus Iranian plus Russian forces, in a sense, to interpose 
themselves between the Turks and the areas further south. So 
there may be a little bit of a competition as well between the 
Turks and the regime forces.
    Mr. Sherman. Over the last year or two when the Kurdish 
forces in Syria had control of territory to what extent was 
that territory used as an identifiable source of terrorist 
action inside Turkey?
    Ms. Stroul. We asked that question to multiple different 
briefers both in the U.S. Government and when we traveled 
throughout the region, and while it is clear to us that there 
are ideological affiliations between the PKK and the YPG, and 
our report calls for specific actions for the YPG to 
differentiate itself from the PKK, we did not find examples 
where U.S.-provided arms to the YPG in Syria made itself across 
the border into Turkey.
    Mr. Singh. I will just add, Congressman, though, that you 
will find plenty of examples, especially from earlier parts of 
the war, support for ISIS and so forth coming the other 
direction across the border, which is, again, one thing that we 
have not been able to successfully address with the Turks.
    Mr. Sherman. So the--so the Turks did a terrible job of 
preventing ISIS from going into Syria and the Syrian Kurds have 
done a excellent job of making sure that malevolent actors do 
not go from their--the territory they controlled up into 
Turkey, and yet Turkey begins this terrible conflict.
    I yield back.
    Mr. Deutch. Thank you very much, Mr. Sherman.
    I thank the witnesses and all members for being here today. 
Thank you both for your testimony. Thank you for your very 
thoughtful leadership of this important Syria Study Group and 
thanks for the report that you produced.
    Members of the subcommittee may have some additional 
questions for you. We ask them to please submit those within 
the next 5 days and we ask that you respond in writing.
    And I just want to thank you again for--over the past 9 
years we have had many, many hearings on Syria, both here and 
in the full committee.
    We sit here at this moment, with Assad having slaughtered 
over 600,000 people, and almost 6 million refugees and 6 
million people displaced inside the country, and the world's 
largest State sponsor of terrorists stronger now there than 
before, the country most dedicated to sowing discord and 
democratic--fighting democratic norms, stronger there than they 
were before.
    And what you have offered us here, I think, is a really 
important and useful tool for discussion and I hope--I urge my 
colleagues all to take this seriously and to read it and that 
it informs the work that we do, going forward.
    Sincere thanks again for being here.
    And with that, we are adjourned.
    [Whereupon, at 4:26 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                



                                 <all>
</pre></body></html>
